                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C.

                                                                                          OFFICE OF
                                                                                     INSPECTOR GENERAL




May 26, 2004

Memorandum

Subject:	       Final Auditor’s Report for the State of Washington Water Pollution
                Control Revolving Fund For The Year Ended June 30, 2003
                Audit Report No. 2004-1-00067

From:	          William m. Dayton
                National SRF Audit Manager


To:	            John Iani
                Regional Administrator
                EPA, Region 10
                Seattle, Washington


Attached is a copy of the subject audit report we sent to the State of Washington. The audit contains
reports on the financial statements, internal controls, and compliance applicable to the State Revolving Fund
(SRF) program in Washington.

We have issued an unqualified opinion on the financial statements and compliance requirements, and
noted no matters involving the internal control system and operations that we consider to be material
weaknesses.

We did not have any compliance matters or costs questioned, and we are closing the audit report on
issuance.

Please call me at (916) 498-6590 or Darren Schorer at (206) 553-6288 should you have any comments or
questions.


Attachment
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C.

                                                                                         OFFICE OF
                                                                                    INSPECTOR GENERAL




May 26, 2004


Ms. Nancy Stevenson, Chief Financial Officer
State of Washington, Department of Ecology
P.O. Box 47600
Olympia, WA 98504-7600


Subject:        Final Report of Audit of Financial Statements of the State of Washington Water Pollution
                Control Revolving Fund for the year ended June 30, 2003
                EPA Audit Report No. 2004-1-00067


Dear Ms. Stevenson:

Enclosed please find an electronic copy of the final audited financial statements for the State of Washington
Water Pollution Control Revolving Fund (the Fund) for the year ended June 30, 2003. The purpose of our
audit was to:

           •	   Examine the financial statements of the State of Washington Water Pollution Control
                Revolving Fund for the year ended June 30, 2003, and issue a report containing our
                opinion of the financial statements;

           •	   Report on the internal control structure of the Washington Water Pollution Control
                Revolving Fund program;

           •	   Report on compliance with specific program requirements of the Washington Water
                Pollution Control Revolving Fund program.

We have issued an unqualified opinion on the financial statements and an unqualified opinion on the
compliance requirements. In our report on internal controls, we noted no matters involving the internal
control structure and its operations that we considered to be a material weakness. We discussed these
reports with your program management who generally agreed with the results of our audit.

We would like to thank you and your staff for the cooperation and courtesies we received during our audit.
If you have any questions or concerns, please contact me at (916) 498-6590 or Darren Schorer at (206)
553-6288.


Sincerely,


William M. Dayton
National SRF Audit Manager
OIG

OFFICE OF INSPECTOR GENERAL


                                    Catalyst for Improving the Environment


Audit Report

State of Washington
Water Pollution Control State Revolving Fund



Financial Statements with
Independent Auditor’s Report, June 30, 2003


Audit Report Number 2004-1-00067


Issued May 26, 2004
Inspector General Division       Western Audit Division
Conducting the Audit:          San Francisco, California

Region Covered:                              Region 10

Program Office Involved:     Water Management Division
                                                                   State of Washington
                                              Water Pollution Control State Revolving Fund

                                                                       Table of Contents


Independent Auditor’s Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


Statement of Net Assets . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2


Statement of Revenues, Expenses and Changes in Fund Net Assets . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


Statement of Cash Flows . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


Notes to the Financial Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


Independent Auditor’s Report on the Internal Control Structure Based on an

       Audit of the Financial Statements Performed In Accordance with
       Government Auditing Standards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


Independent Auditor’s Report on Compliance with the Requirements Applicable to the Environmental

       Protection Agency’s State Revolving Fund Program in Accordance with
       Government Auditing Standards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

                                 UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                               WASHINGTON, D.C.

                                                                                                           OFFICE OF
                                                                                                      INSPECTOR GENERAL




                                             Independent Auditor’s Report


To:    Nancy Stevenson
       Chief Financial Officer
       Washington State Department of Ecology
       State of Washington

We have audited the accompanying statement of net assets of the Washington Department of Ecology Water Pollution Control
State Revolving Fund Program (the Program) as of June 30, 2003, and the related statements of revenues, expenses and
changes in fund net assets, and cash flows for the year then ended. These financial statements are the responsibility of the
Program’s management. Our responsibility is to express an opinion on these financial statements based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the United States of America and
standards applicable to financial audits contained in Government Auditing Standards, issued by the Comptroller General of the
United States. Those standards require that we plan and perform the audit to obtain reasonable assurance about whether the
financial statements are free of material misstatement. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements. An audit also includes assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement presentation. We believe that
our audit provides a reasonable basis for our opinion.

In our opinion, the financial statements referred to in the first paragraph present fairly, in all material respects, the financial

position of the Washington Department of Ecology Water Pollution Control State Revolving Fund as of June 30, 2003 and the

results of its operation and its cash flows for the year then ended in conformity with accounting principles generally accepted in

the United States.


As discussed in Note 1, the financial statements referred to above are intended to present the financial position and results of
operations of the Washington Department of Ecology Water Pollution Control State Revolving Fund, a component fund of the
State of Washington. These statements are not intended to present the financial position or results of operations for the State of
Washington or the Washington Department of Ecology, in conformity with accounting principles generally accepted in the United
States, of which the Water Pollution Control Revolving Fund is a part.

In accordance with Government Auditing Standards, we have also issued a report, dated February 27, 2004, on our
consideration of the Washington Department of Ecology Water Pollution Control State Revolving Fund’s internal control
structure and a report dated February 27, 2004 on its compliance with laws and regulations. Those reports are integral parts of
an audit prepared in accordance with auditing standards generally accepted in the United States of America and should be read
in conjunction with the report in considering the results of our audit.



Office of the Inspector General

Environmental Protection Agency


February 27, 2004
                                   WASHINGTON DEPARTMENT OF ECOLOGY
                                   Water Pollution Control State Revolving Fund
                                                Statement of Net Assets
                                                     June 30, 2003
                                       With Unaudited Comparative Totals for 2002
                                                           (in thousands)

                                                                                                          Unaudited
                                                                                            June 30,       June 30,
           Assets                                                                             2003           2002
Current assets:
 Cash and cash equivalents                                                              $     130,012     $   129,167
 Receivables:
   Due from Federal government                                                                    158             109
   Interest on SRF loans                                                                        1,287           1,301
   Interest on investments                                                                        284             311
 Total receivables                                                                              1,729           1,721
   Current maturities of SRF loans                                                             15,004          13,587
Total current assets                                                                          146,745         144,475

Loans receivable, net of current maturities                                                   270,546         231,229

Total assets                                                                                  417,291         375,704


   Liabilities and Net Assets
Liabilities:
Current liabilities:
 Accounts payable and accrued expenses                                                             60              62
 Due to other Funds                                                                                25              34
 Construction costs payable                                                                       381           1,938
    Total current liabilities                                                                     466           2,034

Net assets:
 Restricted                                                                                   416,825         373,670

Total liabilities and net assets                                                         $    417,291     $   375,704




                             The accompanying notes are an integral part of these financial statements.


                                                                 2
                                WASHINGTON DEPARTMENT OF ECOLOGY
                                Water Pollution Control State Revolving Fund
                       Statement of Revenues, Expenses and Changes in Fund Net Assets
                                       For the year ended June 30, 2003
                                  With Unaudited Comparative Totals for 2002
                                                       (in thousands)


                                                                                                       Unaudited
                                                                                      June 30,          June 30,
                                                                                        2003              2002
Operating Revenues:
 Interest income on SRF loans                                                        $      6,677       $     7,973

Operating Expenses:
 Salaries and benefits                                                                        712               724
 Supplies                                                                                      29                26
 Travel                                                                                        13                 9
 Indirect Costs                                                                               248               263
 Contracts                                                                                    496               228
   Total operating expenses                                                                 1,498             1,250

Operating income (loss)                                                                     5,179             6,723

Nonoperating Revenue (Expenses)
 Interest on investments                                                                    3,375             4,193
 Funds received from EPA                                                                   28,855            16,439
 Fund received from State of Washington                                                     5,746             3,284
    Total nonoperating revenue                                                             37,976            23,916

Change in net assets                                                                       43,155            30,639

Net assets, beginning of year                                                             373,670           343,031

Net assets, end of year                                                               $   416,825       $ 373,670




                          The accompanying notes are an integral part of these financial statements.


                                                              3
                                  WASHINGTON DEPARTMENT OF ECOLOGY
                                  Water Pollution Control State Revolving Fund
                                          Combined Statement of Cash Flows
                                           For the year ended June 30, 2003
                                      With Unaudited Comparative Totals for 2002
                                                         (in thousands)


                                                                                                            Unaudited
                                                                                         June 30,            June 30,
                                                                                           2003               2002
Cash flows from operating activities:
 Receipts from customers                                                             $       7,242      $        11,731
 Payments to employees and suppliers                                                        (1,526)              (1,222)

Net cash provided by operating activities                                                    5,716               10,509

Cash flows from noncapital financing activities:
 Funds received from EPA                                                                   28,805                16,416
 Transfer from other State funds                                                            5,746                 3,284

Net cash provided (used) by noncapital financing activities                                34,551                19,700

Cash flows from investing activities:
 Receipt from interest on investments                                                        3,402                4,148
 Loan Disbursements                                                                        (68,674)             (32,619)
 Repayment of loans                                                                         25,850               58,497

Net cash provided (used) by investing activities                                           (39,422)              30,026

Net cash provided (used)                                                                      845                60,235

Cash and cash equivalents, beginning of year                                              129,167                68,932

Cash and cash equivalents, end of year                                              $     130,012       $       129,167


Reconciliation of operating income (loss) to net
cash provided (used) by operating activities
 Excess of revenue over expenses                                                    $        5,179      $         6,723
 (Increase) decrease in loan interest receivable                                                14                1,215
 Increase (decrease) in A/P and other liabilities                                              (28)                  28
 Increase (decrease) in deferred interest                                                      551                2,543
Net cash used by operating activities                                               $        5,716          $    10,509




                           The accompanying notes are an integral part of these financial statements.


                                                               4
                            WASHINGTON DEPARTMENT OF ECOLOGY
                            Water Pollution Control State Revolving Fund
                                        Notes to Financial Statements


1.   Organization of the Fund

     Washington’s Water Pollution Control Revolving Fund (the Fund) was established pursuant to Title VI of the
     Federal Water Quality Act of 1987 (the Act). The Act established the State Revolving Fund (SRF) program
     to replace the construction grants program. The SRF provides loans at reduced interest rates to finance
     the entire cost of qualified projects for the construction of publicly owned water pollution control facilities,
     nonpoint source pollution control projects, and development of estuary conservation and management
     plans. Loans made by the Fund must be repaid within 20 years, and all repayments, including interest and
     principal, must be credited to the Fund.

     The fund was capitalized by a series of grants from the U.S. Environmental Protection Agency (EPA)
     starting in 1989. State’s are required to provide an additional 20 percent of the Federal capitalization grant
     amount as matching funds in order to receive the grant from EPA. As of June 30, 2003, EPA awarded
     approximately $342,068 in capitalization grants to the State, and the State is required to provide $68,414 to
     the Fund as its matching share. The State match is transferred to the Fund from the State’s Centennial
     Clean Water Fund at the time of the cash draw.

     The Fund is administered by the Washington State Department of Ecology (WDOE) through the Water
     Quality Program Office (the Program). The Program’s primary responsibilities for the SRF includes
     obtaining capitalization grants from EPA, soliciting potential interested parties, negotiating loan agreements
     with local communities, reviewing and approving payment requests from loan recipients, managing the loan
     repayments, and conducting inspection and engineering reviews to ensure compliance with all applicable
     laws, regulations, and program requirements.

     The Fund does not have any full time employees. WDOE charges the Fund for time spent on SRF
     activities by its employees, and the Fund reimburses WDOE for such costs in the following month. The
     charges include the salaries and benefits of the employees, as well as indirect costs allocated to the Fund
     based on direct salary costs. Employees charging time to the Fund are covered by the benefits available
     to Washington State Employees. The Fund is also charged indirect costs through the cost allocation plan
     for general state expenses.

     The Fund is included in the Washington’s general purpose financial statements as a special revenue fund,
     which uses the modified accrual basis of accounting. Due to differences in reporting methods, there may
     be differences between the amounts reported in these financial statements and the general purpose
     financial statements.


2.   Summary of Significant Accounting Policies

     Basis of Accounting

     The financial statements for the Fund are presented as a special revenue fund which uses the accrual
     basis of accounting whereby revenues are recorded as earned and expenses are recorded when the
     liability is incurred. The State has elected to follow the accounting pronouncements of the Governmental
     Accounting Standards Board (GASB), as well as statements issued by the Financial Accounting Standards
     Board on or before November 30, 1989, unless the pronouncements conflict with or contradict GASB
     pronouncements.




                                                        5
                           WASHINGTON DEPARTMENT OF ECOLOGY
                           Water Pollution Control State Revolving Fund
                                       Notes to Financial Statements


2.   Summary of Significant Accounting Policies (continued)

     Cash and Cash Equivalents

     All moneys of the Fund are deposited with the State Treasurer’s Office, and are considered cash.
     According to State law, the Treasurer is responsible for maintaining the cash balances and investing
     excess cash of the Fund. Consequently, management of the Fund does not have any control over the
     investment of the excess cash. The statement of cash flows considers all funds deposited with the
     Treasurer to be cash or cash equivalents, regardless of actual maturities of the underlying investments.

     Loans Receivable

     WDOE operates the Fund as a direct loan program which makes loans to communities through funding
     by the Federal capitalization grant for 83.3 percent of the loan amount, and funding by State matching for
     16.7 percent of the loan amount. Loan funds are disbursed to the local agencies after they expend funds
     for the purposes of the loan and then request reimbursement from the Fund. Interest is calculated from
     the date the funds are disbursed. After the final disbursement, the loan amount and repayment schedule
     are adjusted for actual funds disbursed and interest accrued during the project period. No provision for
     uncollectible accounts has been made as all loans are current, and management believes that all loans will
     be repaid according to the loan terms.

     Contributed Capital

     In accordance with generally accepted accounting principles (GAAP), funds received from EPA and
     Washington State for the capitalization of the Fund are recorded as contributed capital, as discussed in
     Note 5.

     Reclassifications

     Certain amounts in the 2002 unaudited financial statements have been reclassified to conform to the
     presentation in the 2003 financial statements.


3.   Cash and Cash Equivalents

     All monies of the Fund are deposited with the State Treasurer’s Office as part of the State’s Treasury/Trust
     Portfolio, and are considered cash. The Treasurer is responsible for maintaining and investing the pooled
     cash balances in accordance with State laws. The Treasurer is required to maintain a mix of investment
     portfolios in order to allow funds to be withdrawn at any time to meet normal operating needs without prior
     notice or penalty. The Fund’s proportionate share of the investment income, based on the average daily
     balance for the period, is credited to the Fund monthly. The Treasurer charges all the funds of the State
     categorized as treasury funds up to one percent of the average daily balance for administration costs.
     As of June 30, 2003, total Treasurer’s average daily invested balance of the Treasury/Trust Fund Portfolio
     was $2.5 billion. Details of the investments can be obtained from the State Treasurer’s Office.

     All cash and investments are stated at cost, which approximates fair market value. Investments in local
     government investment pools are not categorized because they are not evidenced by securities that exist
     in physical or book entry form.



                                                      6
                            WASHINGTON DEPARTMENT OF ECOLOGY
                            Water Pollution Control State Revolving Fund
                                       Notes to Financial Statements


3.   Cash and Cash Equivalents (continued)

                                                                           Carrying              Market
                                                                            Amount                Value
              Not subject to categorization:
               Treasury/Trust Portfolio                                    $     130,012        $ 130,012


4.   Loans Receivable

     The Fund makes loans to qualified agencies for projects that meet the eligibility requirements of the Clean
     Water Act. Loans are financed by capitalization grants, state matches and revolving funds. The interest
     rate is established at 60 percent of the Bond Buyers Index for tax exempt municipal bonds for loans with
     more than a five year term but no more than 20 years and 30 percent of the index for loans for up to five
     years. For the year ended June 30, 2003, interest rates varied between 0.5 and 1.5 percent. The Fund
     also makes zero interest rate loans for communities that can demonstrate financial hardship on residential
     ratepayers in the form of sewer user fees. As of June 30, 2003, the Fund had made 125 zero interest
     rate loans for approximately $127 million to communities with severe financial hardship. These numbers
     do not include recipients with paid off loans. Loan repayments are required to start one year after project
     completion. Details of loans receivable as of June 30, 2003, are summarized below:


     Loans by Category:

     Loans receivable by project status at June 30, 2003 are as follows:

                                                                Loan     Remaining          Outstanding
                                                             Authorized Commitment           Balance

     Completed projects                                      $ 362,181 $               0    $ 224,607
     Projects in progress                                      120,368            62,572       60,943

     Totals                                                  $ 482,549 $          62,572          285,550

     Less amount due within one year                                                               15,004

     Loans receivable, June 30, 2003                                                        $     270,546

     Loans mature at various intervals. The scheduled minimum principle repayments on completely disbursed
     loans in subsequent years are as follows:

     Year ending June 30:                                                       Amount 

                     2004                                                      $ 15,004

                     2005                                                         13,391

                     2006                                                         13,094

                     2007                                                         13,118

                     2008                                                         13,111

                     Thereafter                                                  156,889


                                                                               $ 224,607

                                                      7
                          WASHINGTON DEPARTMENT OF ECOLOGY
                          Water Pollution Control State Revolving Fund
                                     Notes to Financial Statements


4.   Loans Receivable (continued)

     Loans to Major Local Agencies:

     As of June 30, 2003, the Fund made loans to the following 15 major local agencies. The aggregate
     outstanding balance for each of these agencies exceeds $5 million. The outstanding balances of these
     loans represent approximately 72 percent of the total loans receivable.

                                          Authorized       Project          Loan
                                            Loan           Period         Amount At       Outstanding
                     Agency                Amount           Interest     Completion         Balance

             City of Burlington       $ 5,393
              $    478     $     5,871      $     5,281
             City of Camas               9,292
                  720          10,012            9,065
             City of Centralia          32,998
                    0          20,663           19,948
             City of Kennewick           9,693
                  670          10,064            8,636
             King Co. Department of 

              Nat. Resources            13,838
                    0          13,838           11,932
             King Co. Wastewater

             Treat. Division            14,207
                     0         14,207           13,878
             City of Lynden              6,522
                    56          5,788            5,788
             Mason County               12,732
                    53         12,785            7,364
             City of Monroe             11,843
                   123         11,877            7,616
             City of Olympia (LOTT)     36,580
                     0         36,580           25,401
             City of Pasco              22,726
                 2,346         25,072           21,434
             City of Puyallup           13,625
                   780         14,405           13,298
             City of Snohomish          10,855
                     0         10,855            7,186
             Spokane County             11,100
                     0         10,640           10,327
             City of Walla Walla        13,780
                   830         14,610           12,734

             Total                     $ 225,184           $ 6,056        $ 216,812        $ 179,888

     The loan amount at completion may not agree with the authorized loan amount plus capitalized project
     period interest. Communities may elect to pay capitalized project period interest separately or add the
     amount to the final loan amount. Further, the authorized loan amount is based on estimates, and final
     project costs may be different than estimated.


5.   Contributed Capital and Fund Balance

     The Fund is capitalized by grants from EPA authorized by the Clean Water Act and by matching funds
     from the State. All funds drawn are recorded as contributed capital from the EPA and Washington State.
     As of June 30, 2003, EPA awarded capitalization grants of $342,068 to the State, of which $282,148 has
     been drawn for loans and administrative expenses. The State has provided matching funds of $56,407.
     The following summarizes the capitalization grant awarded, amounts drawn on each grant as of the
     balance sheet date, and balances available for future loans:




                                                       8
                           WASHINGTON DEPARTMENT OF ECOLOGY
                           Water Pollution Control State Revolving Fund
                                       Notes to Financial Statements


5.   Contributed Capital and Fund Balance (continued)

                                         Draws
               Draws                            Available
                        Grant           June 30,
             2003            June 30,         June 30,
                       Amount              2002 
             Draws           2003             2003
     1989-1991        $ 70,278         $ 70,278             $      0         $ 70,278        $           0
     1992               33,789            33,789
                  0            33,789                   0
     1993               33,425            33,425
                  0            33,425                   0
     1994               20,740            20,740
                  0            20,740                   0
     1995               21,420            21,420
                  0            21,420                   0
     1996               22,509            22,509
                  0            22,509                   0
     1997               23,415            23,415
                  0            23,415                   0
     1998               23,417            23,097
                320            23,417                   0
     1999               46,759             4,778
             28,535            33,313            13,446
     2001               23,132                 0
                  0                 0            23,132
     2002               23,184                 0
                  0                 0            23,184

     Totals           $ 342,068        $ 253,451           $ 28,855          $ 282,306         $   59,762


     As of June 30, State matching contributions were:

                                                                              2003
                                                               2002        Contribution            2003

     Washington State Matching Contributions               $ 50,661         $      5,746       $   56,407


6.   Contingencies and Subsequent Events

     Contingencies

     The Fund is exposed to various risks of loss related to torts, thefts of assets, errors or omissions, injuries
     to state employees while performing Fund business, or acts of God.

     The Fund maintains insurance for all risks of loss which is included in the indirect costs allocated to the
     Fund. There have not been any claims against the Fund since its inception in 1989 and no contingencies
     came to our attention during our audit which require disclosure or accrual under Statement of Financial
     Accounting Standards No. 5.




                                                       9
                          WASHINGTON DEPARTMENT OF ECOLOGY
                          Water Pollution Control State Revolving Fund
                                    Notes to Financial Statements


6.   Contingencies and Subsequent Events (continued)

     Subsequent Events

     No events occurred subsequent to the balance sheet date came to our attention which require adjustment
     to, or disclosure in, the financial statements.




                                                   10
 Independent Auditor’s Report on the
Internal Control Structure Based on an
   Audit of the Financial Statements
     Performed in Accordance with
    Government Auditing Standards
                                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                                      WASHINGTON, D.C.

                                                                                                           OFFICE OF
                                                                                                      INSPECTOR GENERAL




TO:      Nancy Stevenson
         Chief Financial Officer
         Washington State Department of Ecology
         State of Washington


We have audited the financial statements of Washington Department of Ecology Water Pollution Control State Revolving Fund
Program (the Program) as of and for the year ended June 30, 2003, and have issued our report thereon dated February 27,
2004.

We conducted our audit in accordance with auditing standards generally accepted in the United States of America and
standards applicable to financial audits contained in Government Auditing Standards, issued by the Comptroller General of the
United States. Those standards require that we plan and perform the audit to obtain reasonable assurance about whether the
financial statements are free from material misstatement.

The management of the Washington Department of Ecology Water State Revolving Fund is responsible for establishing and
maintaining an internal control structure. In fulfilling its responsibilities, estimates and judgements by management are required
to assess the expected benefits and related costs of internal control policies and procedures. The objectives of an internal
control structure are to provide management with reasonable, but not absolute, assurance that assets are safeguarded against
loss from unauthorized use or disposition and that transactions are executed in accordance with management’s authorization
and recorded properly to permit the preparation of financial statements in accordance with generally accepted accounting
principles. Because of inherent limitations in any internal control structure, errors or irregularities may nevertheless occur and
not be detected. Also, projection of any evaluation of the structure to future periods is subject to the risk that procedures may
become inadequate because of changes in conditions or that the effectiveness of the design and operation of policies and
procedures may deteriorate.

In planning and performing our audit of the financial statements of the Washington Department of Ecology Water Pollution
Control State Revolving Fund for the year ended June 30, 2003, we obtained an understanding of the internal control structure.
With respect to the internal control structure, we obtained an understanding of the design of relevant policies and procedures
and whether they have been placed in operation, and we assessed control risk in order to determine our auditing procedures for
the purpose of expressing our opinion on the financial statements and not to provide an opinion on the internal control structure.
Accordingly, we do not express such an opinion.

Our consideration of the internal control over financial reporting would not necessarily disclose all matters in the internal control
over financial reporting that might be material weaknesses under standards established by the American Institute of Certified
Public Accountants. A material weakness is a condition in which the design or operation of one or more of the internal control
components does not reduce to a relatively low level the risk that misstatements in amounts that would be material in relation to
the financial statements being audited may occur and not be detected within a timely period by employees in the normal course
of performing their assigned functions. We noted no matters involving the internal control structure and its operations that we
consider to be material weaknesses as defined above.

This report is intended for the information of management of the Washington Department of Ecology Water Pollution Control
State Revolving Fund and the United States Environmental Protection Agency. However, this report is a matter of public record
and distribution is not limited.



Office of Inspector General
Environmental Protection Agency
February 27, 2004




                                                                 12
          Independent Auditor’s Report
on Compliance with Requirements Applicable to the
       Environmental Protection Agency’s
         State Revolving Fund Program
               in Accordance with
         Government Auditing Standards
                                            UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                                        WASHINGTON, D.C.

                                                                                                         OFFICE OF
                                                                                                    INSPECTOR GENERAL




TO:      Nancy Stevenson
         Chief Financial Officer
         Washington State Department of Ecology
         State of Washington

We have audited the financial statements of the Washington Department of Ecology Water Pollution Control State Revolving

Fund Program (the Program) as of and for the year ended June 30, 2003, and have issued our report thereon dated February

27, 2004.


We have also audited the Program’s compliance with requirements governing the following:

         C   Allowability for Specific Activities;

         C   Allowable Costs/Cost Principles;

         C   Cash Management;

         C   State Matching;

         C   Period of Availability of Funds and Binding Commitments;

         C   Program Income;

         C   Reporting;

         C   Sub-recipient Monitoring, and;

         C   Special tests and provisions;


The above compliance requirements are applicable to the Washington Department of Ecology Water Pollution Control State
Revolving Fund Program for the year ended June 30, 2003. The management of the Program is responsible for it’s compliance
with those requirements. Our responsibility is to express an opinion on those requirements based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the United States of America; the

standards applicable to financial audits contained in Government Auditing Standards, issued by the Comptroller General of the

United States. Those standards require that we plan and perform the audit to obtain reasonable assurance about whether

material noncompliance with the requirements of the SRF program occurred. An audit includes examining, on a test basis,

evidence about the Program’s compliance with those requirements. We believe that our audit provides a reasonable basis for

our opinion.


As part of obtaining reasonable assurance about whether the Washington Department of Ecology Water Pollution Control State
Revolving Fund’s financial statements are free of material misstatement, we performed tests of its compliance with certain
provisions of laws, regulations, and grants, noncompliance with which could have a direct and material effect on the
determination financial statement amounts. The results of our tests disclosed no instances of noncompliance that we are
required to report under Government Auditing Standards.

In our opinion, the Program complied, in all material respects, with the specific program requirements listed above for the year

ended June 30, 2003. 


This report is intended for the information of management of the Program and the United States Environmental Protection

Agency. However, this report is a matter of public record and distribution is not limited.




Office of Inspector General

Environmental Protection Agency

February 27, 2004





                                                                14
Report Distribution

EPA, Headquarters:

Director, Grants Administration
Agency Followup Coordinator
Associate Administrator for Congressional
         and Intergovernmental Relations
Associate Administrator for Communications,
         Education and Public Affairs
Infrastructure Branch Chief
CWSRF Coordinator
CWSRF Audit Manager

EPA, Region 10:

Regional Administrator
Office of Water and Watersheds
CWSRF Coordinator
Audit Follow-up Coordinator

State of Washington:

Department of Ecology
